Docket No:

UNITED STATES SUPREME COURT

United States,
Plaintiff-Respondent,
V.

Scott Estes,
Defendant-Petitioner.

On Petition for Writ of Certiorari
TO THE UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ROBERT C. ANDREWS
Attorney for Scott Estes
First Circuit Bar Number 88418
117 Auburn Street Suite 201
Portland, ME 04103
Tel. 207-879-9850
Fax 207-879-1883
E-mail rob.andrews.esq@gmail.com

STATEMENT OF THE QUESTIONS PRESENTED
1.

Did the United States Court of Appeals for the First Circuit fail to correctly
apply the objective primary purpose test for testimonial statements made
during a 911 call when the Government declined to have the available caller
testify.

1

TABLE OF CONTENTS
Page
STATEMENT OF THE QUESTIONS PRESENTED ...................................................................... 1.

TABLE OF CONTENTS ............................................................................................................. 2

TABLE OF AUTHORITIES ....................................................................................................... 3
CITATIONS OF OPINIONS AND ORDERS ................................................................................... 4
JURISDICTIONAL STATEMENT ................................................................................................... 5
PROVISIONS OF LAW .................................................................................................................... 6
STATEMENT OF FACTS ................................................................................................................. 7
ARGUMENT.................................................................................................................................... 12
I.

The First Circuit Court of Appeals incorrectly applied the objective
primary purpose test when deciding the recorded 911 statements
were not testimonial………………………………………………………….12

II.

The correct application of the objective primary purpose test would
have contextualized the statements both as to what was happening
at the time of the emergency and the motivations of the participants…….16

III.

The United States Supreme Court should grant the Petition for a Writ of
Certiorari to resolve this significant erosion of the Sixth Amendment right
to confrontation…………………………………………………………………….21

CONCLUSION .......................................................................................................................... 22

2

TABLE OF AUTHORITIES
UNITED STATES SUPREME COURT CASES
Coy v. Iowa, 487 U.S. 1012, 1019-20 (1988)……………..……….……………………………19
Davis v Washington 547 U.S. 813, 822 (2006)……………….…..………………………...13, 16
Maryland v. Craig, 497 U.S. 836, 850 (1990….………………..….…………………………...18
Michigan v. Bryant, 562 U.S. 344, 359 (2011)……………………….……………...14, 17,20, 21

UNITED STATES COURT OF APPEALS
United States v. Cadieux, 500 F.3d 37, 41 (1st Cir. 2007)………..…………………………….13
United States v. Estes, 985 F.3d 99, (1st Cir. 2021)…………..…………………………….passim
United States v. Brito, 427 F.3d 53 (1st Cir.2005)………………………………………………15
United States v. Rondeau, 430 F.3d 44 (1st Cir. 2005)…………………………………………..15
STATUTES
18 U.S.C. § 3231 ............................................................................................................................. 5
18 U.S.C. 922(g) .................................................................................................................... 5, 7, 16
18 U.S.C. 922(j)..................................................................................................................... 5, 7, 16
28 U.S.C. § 1291 ............................................................................................................................. 5

OTHER AUTHORITIES
Fed. R. App. P. 4(b)……………………………………………………………………………….5

3

CITATIONS OF OPINIONS AND ORDERS
United States v Scott Estes, No. 2:19-cr-00068-DBH, Docket Entry 119; and United States v.
Scott Estes, 985 F.3d 99 (1st Cir. 2021)

4

JURISDICTIONAL STATEMENT
Review on Petition for Writ of Certiorari. The Petitioner makes this petition based
on the jurisdiction conferred by Article III Section 1 of the United States Constitution and
Rule 10 of the Supreme Court Rules. The Decision in the United States Court of Appeals
for the First Circuit deals with an important federal question which conflicts with other
decisions of the Supreme Court of the United States. This petition has been timely filed
within 150 days from the order denying the petition for rehearing and rehearing en banc on
March 16, 2021.
Appellate Jurisdiction. The Petitioner takes this appeal as of right in a criminal
prosecution under 28 U.S.C. § 1291 and the jurisdiction established by Federal Rule of
Appellate Procedure 4. Pursuant to Fed. R. App. P. 4(b), the notice of appeal must be filed in
the district court within 14 days after entry of the order or judgment appealed. The notice of
appeal in this matter was timely filed on October 30, 2019.
Original Jurisdiction. District Courts of the United States have original jurisdiction of
all offenses against the laws of the United States. See 18 U.S.C. § 3231. The indictment in this
matter resulted in convictions of Mr. Estes for violations of 18 U.S.C. § 922.

5

PROVISIONS OF LAW
U.S.CA. Const. Amend. VI (West 2021)
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his defense.

6

STATEMENT OF FACTS
On October 30, 2019, United States District Court Judge D. Brock Hornby sentenced Scott
Estes to 36 months in prison and three years of supervised release for his convictions for being a
felon in possession of firearm in violation 18 U.S.C § 922(g)(1) and possession of a stolen firearm in
violation of 18 U.S.C. § 922(j). Appendix hereinafter A at 1. Mr. Estes entered a plea of guilty on
June 17, 2019 after entering into an agreement with the Government that preserved his right to
appeal the order on the Motion in Limine that allowed the Government to use a recording of a 911
telephone call without calling the witness who made the call. Mr. Estes filed a timely appeal on
October 31, 2019. A at 14.

THE FACTS ASSERTED BY SCOTT ESTES

The Government filed a Motion in Limine with the following factual explanation: On
November 13, 2017, Lewiston dispatchers received a surreptitious 911 call from an individual
hereinafter referred to as “Katherine.” At the outset of the call, Katherine carefully and nervously
explained that she was driving her truck with her boyfriend, Scott Estes, as a passenger and that she
was in danger. Estes had briefly stepped out of the truck allowing Katherine to call 911. During the
call, Katherine reported the following: Katherine owns a cleaning business and decided to bring
Estes with her to a Lewiston address to assist her with cleaning the apartment. When Katherine and
Estes left that residence, Estes was acting strangely. As Katherine spoke with Estes, she felt like
something was wrong and she began to question him. Estes appeared irritated and took out a gun clip
and claimed that he had a gun. Katherine told Estes that it was a clip, not a gun. Estes then pulled a
7

gun out of his jacket, put the clip in it, and pointed the gun at Katherine’s head as she drove.
Katherine expressed how frightened she was and that she didn’t know what Estes would do next.
Katherine described Estes as having a blank stare like "Jeffrey Dahmer.” Katherine tried to appease
Estes by acting like she wasn't scared and telling him that he could sell it for money. While driving,
Katherine encountered a broken-down vehicle, which she could not pass. When she stopped, Estes
got out to help the broken-down motorist. That is when she dialed 911. Katherine continued to stay
on the line with 911 when Estes got back in the vehicle. Katherine pretended that she was speaking
to her credit card company. According to Katherine, Estes requested to go visit his friends at an
apartment on Bates Street in Lewiston. Katherine then then drove to Bates Street while still on the
line with 911. When they arrived, Estes went inside the apartment while Katherine waited outside.
Officers were dispatched to Bates Street. When they arrived, they located Katherine and ensured she
was safe. Katherine explained that Estes was currently inside the building visiting his friends. A
short time later, officers witnessed a male, who Katherine immediately confirmed was Estes,
walking out of the Bates Street apartment. When he saw the police, Estes quickly retreated back into
the building. It is around this time that the 911 call ends. A at 10.
Mr. Estes objected to the Government’s motion and focused on the timing of events to
demonstrate that the recording should not be allowed without the witness testimony. A at 11. In the
late morning hours of November 13, 2017, Katherine Hutchins began contacting various people
about a gun that she claimed was in the possession of her boyfriend Scott Estes. A at 26. These
contacts by Ms. Hutchins included an Ashley Wing. A at 24. The text log from Ms. Wing’s cellular
telephone notes the time of the first message regarding a gun at 10:59:00 am (UTC-5) or 15:59:00
(UTC). A at 25-25. These contacts also included a Bethany Maheux. A at 26. The messenger log
from Ms. Hutchins’s Facebook account notes the first message to Ms. Maheux regarding a gun at
8

16:06:40 (UTC). A at 26. The Auburn Communications Log for the Lewiston Police Department
dispatch note the beginning of the call 11:11 am or 16:11:00(UTC) although it unclear if that is
when Ms. Wing called 911 or when Ms. Hutchins called 911. A at 28-35.
Ms. Hutchins provided the Lewiston police with the following detailed chronology of the
threatening events of the morning of November 13, 2017: At the job Scott was very quiet. He didn’t
say much but his work was extra good even though it was out of character for him I never
questioned it. So we leave around 11am and I say to Scott lets go to Falmouth so you can go to
work. He says no I am gonna sell that gun I told you about, which I said ya right I heard that before.
Scott shows me a clip with bullets in it. I looked at him puzzled and asked him where did you get
that? He said I told you Beth bought it for me because I can’t buy one I am a felon. So I am still
driving I have stick shift. I hear him and see him out of the corner of my eye. He shoves it in my
face which the way he did it made me very scared. I literally had hair in the back of my neck stand
up. I tell Scott to put it away. From what I saw it was a small gun in a brown holster. Ms. Hutchins
then describes communicating with Bethany Maheux to verify that Scott did not own the gun. When
Ms. Maheux denied buying the gun and giving it to Mr. Estes, Ms. Hutchins described contacting
Ms. Wing. A at 36-39.
The Text log for Ms. Wing tracks all of the messages between Ms. Wing and Ms. Hutchins
and notes the time of receipt. At 10:59 Ms. Hutchins texted “you guys own any guns.” At 11:02.05
Ms. Wing replied “Why?” Ms. Hutchins then texted 11:03:10“I know it’s a weird question.” And
then she texted at 11:04:21, “But the guy that was cleaning with me today. Came up with 9mm
brown case. I never seen him with it before.” At 11:05:08, Ms. Hutchins confirmed that Ms. Wing
owned the gun by texting, “So its yours.” The two then texted for the next six minutes without any
indication of any distress. At 11:11:52, Ms. Hutchins texted, “Please know he loaded it and I am
9

scared I will be hurt.” A at 24-25.
The Facebook Messenger log for Ms. Hutchins also tracks all the messages between her and
Bethany Maheux and notes the time of transmission. At 11:06:40, Ms. Hutchins messaged Ms.
Maheux “I need to know right now. Did you buy Scott a gun. I think he stole one from my job.”
Within a minute, Ms. Maheux responded “No never.” Ms. Hutchins asked Ms. Maheux to call the
cops right now,” at 11:08:20. Ms. Maheux was reluctant to call the police and get involved. At
11:10:24, Ms. Maheux messaged Ms. Hutchins and instructed her to “go to the bathroom and call the
cops from there I’m not involved.” Ms. Hutchins responded with, “He will run,” at 11:13:26 and
then “K” at 11:13:32. A at 26-27.
To clarify the timing of the 911 call by Ms. Hutchins, the agent retrieved a detailed call log.
A at 40. The detailed log indicates that two calls came in at 11:11:09 and 11:11:23. A at 40. The first
call was 00:00:12 in duration, and the second call was 00:04:40 in duration. A third call came in at
11:20:21 that is listed as being 00:07:00 in duration. A at 40. The Government’s transcript of the 911
call characterizes the length of the call as 00:07:01 in length. A at 18-23. The audio recording of the
911 call by Ms. Hutchins is 06:59 seconds long as measured by the audio player counter. See Joint
Exhibit 1.
In a calm voice, Ms. Hutchins made various statements indicating there was no immediate
emergency during the audio recording of the 911 call. Ms. Hutchins told the dispatcher that the gun
was in Mr. Estes’s pocket in the very first statement. Ms. Hutchins told the dispatcher that she was at
the corner of Knox Street in Lewiston right by the police station at 00:04 seconds into the recording.
Ms. Hutchins also told the dispatcher, that he was doing something for someone right now and he
was distracted at 00:17 seconds into the recording. In her statement to police, Ms. Hutchins later
indicated that Mr. Estes was helping someone start their car with jumper cables. At 03:48 minutes
10

into the recording she tells the dispatcher he is running. Just before responding officer made contact
with her at 05:00 minutes into the call, Ms. Hutchins references making the text and messenger
record of what she claimed were that morning’s events by saying “I can show you all the messages.”
See Exhibit 1 to the Government’s Motion, and Joint Exhibit 1.

THE FACTS FROM THE COURT OF APPEALS OPINION

Katherine Hutchins ran a house cleaning service. On the morning of November 13, 2017, she
and her boyfriend of a few months, Estes, had just finished cleaning a house together and were
leaving the job. Hutchins was driving. During the car ride, Hutchins learned that Estes had stolen a
firearm from the house that they had just cleaned. Estes loaded this firearm, showed it to Hutchins,
and pointed it at her. Estes had previously told Hutchins that he was a felon and could not have a
gun. She also believed that he might be using drugs because he was behaving erratically and had
needles in his pocket. During the car ride, at approximately 11:20 AM, Hutchins called 911. 1 When
she made the 911 call, Estes had temporarily left the vehicle to help another motorist. Hutchins
began the call by stating that Estes “loaded a gun, and he has it in his pocket and he's a felon.” The
911 dispatcher *102 said that he would send officers to her location.2 She then told him that she
would have to pretend to be speaking to someone other than the police because she did not want to
“get shot.” She further explained that Estes had “needles in his pocket,” was “not good,” and had
loaded the gun and pointed it at her, causing her to be “a little nervous right now.” She added that
she was “shaking” and “scared,” and implored the police to take her call “really seriously right
now.” The 911 dispatcher assured her that the police were taking her call seriously and again told her
that he was sending officers to her location. At that point, presumably because Estes had re-entered
11

the vehicle, Hutchins began pretending to speak to her credit card company. The 911 dispatcher
played along with Hutchins' ruse, encouraging her to “keep makin[g] ... conversation.” After a few
minutes, Hutchins told the 911 dispatcher that Estes was running into his friend's apartment and that,
as soon as officers arrived, she would show them where Estes had gone. She reiterated that Estes
was “probably going to shoot [her],” adding that she was “nervous” and “scared shitless.” The 911
dispatcher told her that he wanted to ensure that she was safe and asked her to stay on the phone with
him until officers arrived at the scene. They discussed which apartment Estes had entered, and she
volunteered additional information, including Estes' name and birthdate. Officers then arrived, and
Hutchins ended the call. Prior to, and during, the 911 call, Hutchins communicated via text and/or
Facebook Messenger, with two individuals, Ashley Wing (the client whose house she and Estes had
cleaned that morning) and Bethany Maheux.3 In her text exchange with Wing, which began at 10:59
AM (approximately twenty minutes before the 911 call) and continued until 11:35 AM, Hutchins
attempted to determine whether Estes had stolen the gun from Wing's home. Wing confirmed that
the gun was hers. Hutchins asked Wing to call the police and wrote “[p]lease know he loaded it and I
am scare [sic] I will be hurt.” In her exchange with Maheux, which began at approximately 11:06
AM, Hutchins tried to determine whether Maheux had purchased a gun for Estes. Maheux denied
doing so, and when Hutchins asked her to call the police, Maheux replied that she was “not
involved” and encouraged Hutchins to call the police herself.
ARGUMENT

I.

The First Circuit Court of Appeals incorrectly applied the objective primary
purpose test when deciding the recorded 911 statements were not
testimonial.
12

The First Circuit applied a series of factors from the Court’s decision in Davis v Washington
547 U.S. 813, 822 (2006). The First Circuit has broken the Davis test into four elements:
The Davis Court identified several factors that should guide courts in this objective
inquiry, including: (1) Was the declarant speaking about current events as they were
actually happening, “requiring police assistance” rather than describing past events?
(2) Would a “reasonable listener” conclude that the declarant was facing an ongoing
emergency that called for help? (3) Was the nature of what was asked and answered
during the course of a 911 call such that, “viewed objectively, the elicited statements
were necessary to be able to resolve the present emergency” rather than “simply to
learn ... what had happened in the past?” (4) What was the “level of formality” of the
interview? For example, was the caller frantic, in an environment that was neither
tranquil nor safe? See id. at 2276-77 (emphasis in original).
United States v. Cadieux, 500 F.3d 37, 41 (1st Cir. 2007). Mr. Estes argued that the four factors do
not support the District Court’s findings. First, Ms. Hutchins did not indicate that Mr. Estes had
pointed the gun at her head and directly threatened her to either of the women she called to
investigate the origin of the gun before calling 911. According to Ms. Hutchins’s own version of the
events, she claims Mr. Estes shoved the gun in her face and it was the manner in which this was
done that made her scared. Ms. Hutchins also claimed to be driving at the time Mr. Estes did this
and her response to him was to tell him to put the gun away to which it appears that Mr. Estes
complied. The evidence of the communications suggests that there was at least ten minutes between
Ms. Hutchins becoming aware of the gun and asking Ms. Wing and Ms. Maheux to call the police,
which Ms. Wing did at 11:11:09. The audio recording of the 911 call by Ms. Hutchins was an
additional 10 minutes after Ms. Wing called. The information in the call does not have the primary
purpose of resolving the emergency.
While Ms. Hutchins’s claims of emergency and the police response seems to wear the
disguise of crisis, the disguise does not withstand scrutiny. The broad objective primary purpose
13

analysis applied properly, clearly demonstrates that there was no emergency:
As the Solicitor General's brief observes, Brief for United States as Amicus Curiae
20, and contrary to the Michigan Supreme Court's claims, 483 Mich., at 147, 768
N.W.2d, at 73, none of this suggests that an emergency is ongoing in every place or
even just surrounding the victim for the entire time that the perpetrator of a violent
crime is on the loose. As we recognized in Davis,“a conversation which begins as an
interrogation to determine the need for emergency assistance” can “evolve into
testimonial statements.” 547 U.S., at 828, 126 S.Ct. 2266 (internal quotation marks
omitted). This evolution may occur if, for example, a declarant provides police with
information that makes clear that what appeared to be an emergency is not or is no
longer an emergency or that what appeared to be a public threat is actually a private
dispute. It could also occur if a perpetrator is disarmed, surrenders, is apprehended,
or, as in Davis, flees with little prospect of posing a threat to the public. Trial courts
can determine in the first instance when any transition from nontestimonial to
testimonial occurs, and exclude “the portions of any statement that have become
testimonial, as they do, for example, with unduly prejudicial portions of otherwise
admissible evidence.” Id., at 829, 126 S.Ct. 2266.
Michigan v. Bryant, 562 U.S. 344, 365-366 (2011). In isolation, Ms. Hutchins’s claim that Mr. Estes
had a gun, that he loaded it, that he had pointed it at her, and she was scared by the way he pointed it
at her lend themselves to the police response that there was an emergency and the information was
being requested and collected to resolve that emergency. More broadly, though, it is clear the
emergency being described was over: (1) Ms. Hutchins began investigating the origin of the gun
around 10:59:00 when she texted Ms. Wing; (2) When Ms. Hutchins was not satisfied that Ms. Wing
was the source of the gun, she made inquiries to Ms. Maheux; (3) according to Ms. Hutchins, it was
only after she told Mr. Estes to put the gun away that she communicated with Ms. Wing and Ms.
Maheux. Objectively, the police emergency was over when the danger passed and by the time she
identified Mr. Estes to the police officers.
The First Circuit did not agree that Bryant changed the analysis at all. At argument, Mr.
Estes suggested that this focus was too narrow and did not account for this Court’s more recent
decision in Bryant:
14

At oral argument, Estes suggested that the Cadieux factors are inappropriate and
inconsistent with Supreme Court guidance. Because we derived the Cadieux factors
directly from the Supreme Court's decision in Davis, see Cadieux, 500 F.3d at 41, we
find Estes' argument to be without merit.
United States v. Estes, 985 F.3d 99, (1st Cir. 2021). The First Circuit Panel was simply unreceptive to
Mr. Estes assertions: 1. Ms. Hutchins made no claims that Mr. Estes actually threatened her and only
expressed her fear of what might happen, 2. A better indicator of the testimonial statements made by
Ms. Hutchins is her actions prior to making the 911 call and her statements indicating there was no
emergency during the 911 call itself, 3. Ms. Hutchins was talking about past events to the extent that
much of her claims about Mr. Estes were things he had done in the recent past. Ms. Hutchins clearly
described Mr. Estes actions in the past participle as in he loaded a gun, he stole it from my job, he is
a felon, I talked to my job, he showed it to me, like pointed it at me. Ms. Hutchins even informed
the dispatcher that the gun was now in Mr. Estes pocket and he was no longer in the car with her.
The Panel’s opinion drew heavily on the First Circuit’s precedents United States v Cadieux,
500 F.3d 37, 41 (1st Cir. 2007), United States v. Brito, 427 F.3d 53, 62-63 (1st Cir.2005), and United
States v. Rondeau, 430 F.3d 44, 48-49 (1st Cir. 2005) as examples of non-testimonial 911 calls. The
Panel decided that neither the investigation by the declarant nor the time that had passed since the
startling event affected the admissibility of the 911 recording:
In sum, under the factors set forth in Cadieux and consistent with this Court's
precedent, the statements in the 911 recording here are non-testimonial. See Cadieux,
500 F.3d at 41 (finding statements in a 911 recording non-testimonial where caller
was speaking about events in real time and asked for police assistance, and where the
dispatcher's questions were tailored to elicit pertinent facts regarding the
emergency); Brito, 427 F.3d at 62–63 (finding statements in a 911 recording nontestimonial where caller heard gunshots, then saw a man with a gun who pointed the
gun at her and remained in her sight).
Estes, at 103. In what the Panel characterized as a straightforward application of Cadieux, the Panel
15

minimized Ms. Hutchins capacity to reflect on and fabricate Mr. Estes display of the firearm to her
and focused on his continued presence even though the recording evidenced an often benign
everyday interaction. The Panel was unwilling to consider the implications of the investigation or
passage of time on the objective analysis required by Cadieux. Instead, the Panel explained these
objectively relevant events away as indications of the declarant’s subjective reasonableness and the
presence of Mr. Estes. The United States Court of Appeals for the First Circuit held the 911 call was
non-testimonial.
II.

The correct application of the objective primary purpose test would have
contextualized the statements both as to what was happening at the time of
the emergency and the motivations of the participants.

The Government sought to admit a recorded 911 call from Katherine Hutchins as evidence
that Scott Estes possessed a stolen handgun in violation of 18 U.S.C. 922(g), and 18 U.S.C. 922(j).
The Government relied on the Supreme Court’s interpretation of the confrontation clause to show
that the 911 call is non-testimonial:
Statements are nontestimonial when made in the course of police interrogation under
circumstances objectively indicating that the primary purpose of the interrogation is
to enable police assistance to meet an ongoing emergency. They are testimonial when
the circumstances objectively indicate that there is no such ongoing emergency, and
that the primary purpose of the interrogation is to establish or prove past events
potentially relevant to later criminal prosecution.
Davis v. Washington 547 U.S. 813, 822 (2006). The District Court found that Ms. Hutchins’s
statements during the 911 call were not testimonial and only provided to allow the police to meet an
ongoing emergency. Mr. Estes, however, asserts that the statements were provided with an eye
towards providing evidence against him and are testimonial because Ms. Hutchins contrived and
manufactured the emergency. Because the totality of circumstances in this matter demonstrate In all
criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial
16

jury of the state and district wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature and cause of the accusation; to
be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the assistance of counsel for his defense. there was no ongoing emergency on
November 13, 2017, the Government should not have been allowed to present the 911 call unless
Ms. Hutchins is available for cross examination.
The District Court’s findings are misplaced because they fail to account for the broad inquiry
of circumstances that are required under the objective primary purpose test. It is not enough for the
objective primary purpose test to rely only on the subjective information relayed in the 911 call or
the police reaction to it:
To determine whether the “primary purpose” of an interrogation is “to enable police
assistance to meet an ongoing emergency,” Davis, 547 U.S., at 822, 126 S.Ct. 2266,
which would render the resulting statements nontestimonial, we objectively evaluate
the circumstances in which the encounter occurs and the statements and actions of the
parties.
Bryant, at 359. The Government was enthusiastic about using the statements from the recording to
support its burden of proof even as it mischaracterized the call and was accomplished without Ms.
Hutchins’s testimony. There is nothing frantic about Ms. Hutchins call, a fact evident when the
recording is played. Nor was the call placed immediately following having a gun pointed at her head
as the Government asserts. Such delay may have been as long as thirty minutes after any threatening
act Ms. Hutchins claims Mr. Estes committed. In fact, it may be reasonably inferred that Ms.
Hutchins spent a significant amount of time investigating the origin of the gun before deciding to
call 911. The District Court should have used these objective facts to exclude the recording of the
911 call unless the Government planned to use Ms. Hutchins.
The government’s strategy was in clear conflict with the core value of the Sixth
17

Amendment’s right to confrontation. All of the recent Sixth Amendment cases have addressed this
core value:
The basic purpose of the Confrontation Clause was to “targe[t]” the sort of “abuses”
exemplified at the notorious treason trial of Sir Walter Raleigh. Crawford, 541 U.S.,
at 51, 124 S.Ct. 1354. Thus, the most important instances in which the Clause
restricts the introduction of out-of-court statements are those in which state actors are
involved in a formal, out-of-court interrogation of a witness to obtain evidence for
trial.4 See id., at 43–44. Even where such an interrogation is conducted with all good
faith, introduction of the resulting statements at trial can be unfair to the accused if
they are untested by cross-examination. Whether formal or informal, out-of-court
statements can evade the basic objective of the Confrontation Clause, which is to
prevent the accused from being deprived of the opportunity to crossexamine the
declarant about statements taken for use at trial.
Bryant, at 357-58. Here, the Government had a witness who could testify: The victim was available
for that purpose but her testimony carried with it a risk that she would not be believed and that it
would come out that it all had been the product of the drugs she had been consuming for days. To
minimize this risk, the Government resorted to the 911 transcript that provided all the evidence of
possession they needed without any of the risks.
Mr. Estes had a right to have the Government present the testimony offered by Ms. Hutchins
in the recording of the 911 call. Again, this strategic decision not to offer this testimony through Ms.
Hutchins, fails to protect Mr. Estes’s right to confrontation:
That the face-to-face confrontation requirement is not absolute does not, of course,
mean that it may easily be dispensed with. As we suggested in Coy, our precedents
confirm that a defendant's right to confront accusatory witnesses may be satisfied
absent a physical, face-to-face confrontation at trial only where denial of such
confrontation is necessary to further an important public policy and only where the
reliability of the testimony is otherwise assured. See 487 U.S., at 1021, 108 S.Ct., at
2803 (citing Roberts, supra, 448 U.S. at 64, 100 S.Ct., at 2538; Chambers, supra, 410
U.S. at 295, 93 S.Ct., at 1045); Coy, supra, 487 U.S., at 1025, 108 S.Ct., at 2805
(O'Connor, J., concurring).
Maryland v. Craig, 497 U.S. 836, 850 (1990). The Government was not advancing an important
18

public policy by shielding Ms. Hutchins from the witness stand in the presence of Mr. Estes. She
was an adult woman who was capable enough of stacking her position that she called 911 and fully
recounted the elements necessary to prove the charge. The Government had other worries, though,
and did not want to have to explain what Ms. Hutchins had said the next day when she came to the
police station, poured gasoline over herself and threatened to self-immolate because she had been
using crack cocaine for days. The entire purpose behind using the recording of the 911 call was to
avoid these credibility problems.
The United States Supreme Court explicitly recognizes that there is an in person aspect of
proceedings at the core of Sixth Amendment protection. How the witness is affected by the
courtroom and the presence of the person accused matters:
The perception that confrontation is essential to fairness has persisted over the
centuries because there is much truth to it. A witness “may feel quite differently when
he has to repeat his story looking at the man whom he will harm greatly by distorting
or mistaking the facts. He can now understand what sort of human being that man is.”
Z. Chafee, The Blessings of Liberty 35 (1956), quoted in Jay v. Boyd, 351 U.S. 345,
375–376, 76 S.Ct. 919, 935–936, 100 L.Ed. 1242 (1956) (Douglas, J., dissenting). It
is always more difficult to tell a lie about a person “to his face” than “behind his
back.” In the former context, even if the lie is told, it will often be told less
convincingly. The Confrontation Clause does not, of course, compel the witness to fix
his eyes upon the defendant; he may studiously look elsewhere, but the trier of fact
will draw its own conclusions. Thus the right to face-to-face confrontation serves
much the same purpose as a less explicit component of the Confrontation Clause that
we have had more frequent occasion to discuss the right to cross-examine the accuser;
both “ensur[e] the integrity of the fact-finding process.” Kentucky v. Stincer, supra,
482 U.S., at 736, 107 S.Ct., at 2662. The State can hardly gainsay the profound effect
upon a witness of standing in the presence of the person the witness accuses, since
that is the very phenomenon it relies upon to establish the potential “trauma” that
allegedly justified the extraordinary procedure in the present case. That face-to-face
presence may, unfortunately, upset the truthful rape victim or abused child; but by the
same token it may confound and undo the false accuser, or reveal the child coached
by a malevolent adult. It is a truism that constitutional protections have costs.
Coy v. Iowa, 487 U.S. 1012, 1019-20 (1988). In this case, this core protection is affected by the
Government’s use of the recording instead of the Ms. Hutchins’s testimony. The effect of this
19

strategic maneuver is to covertly switch the burden of persuasion as to truthfulness and distance the
Government from the effect of calling the witness in the eyes of the jury. Because the Government
has not asked the jury to believe Ms. Hutchins, there is no reason for the jury to hold the
Government responsible for her drug use and delusional mental state. The inverse, though, is the
likely result of having Mr. Estes call Ms. Hutchins even if the District Court allowed her to be cross
examined. The jury is likely to hold Mr. Estes responsible for asking them to assess Ms. Hutchins’s
testimony even if the jury views the attack on her credibility as necessary. This kind of burden shift
is prohibited by the Sixth Amendment.
This Court has recognized that Constitution has other bars to hearsay testimony. The
problem is that the courts below were unwilling to apply the bars in the context of the Sixth
Amendment challenge raised here:
Of course the Confrontation Clause is not the only bar to admissibility of hearsay
statements at trial. State and federal rules of evidence prohibit the introduction of
hearsay, subject to exceptions. Consistent with those rules, the Due Process Clauses
of the Fifth and Fourteenth Amendments may constitute a further bar to admission of,
for example, unreliable evidence. See Montana v. Egelhoff, 518 U.S. 37, 53, 116
S.Ct. 2013, 135 L.Ed.2d 361 (1996) (plurality opinion) (“[E]rroneous evidentiary
rulings can, in combination, rise to the level of a due process violation”); Dutton v.
Evans, 400 U.S. 74, 96–97, 91 S.Ct. 210, 27 L.Ed.2d 213 (1970) (HARLAN, J.,
concurring in result) (“[T]he Fifth and Fourteenth Amendments' commands that
federal and state trials, respectively, must be conducted in accordance with due
process of law” are the “standard” by which to “test federal and state rules of
evidence”).
Bryant, at 370 n.13. The courts below took this Court’s statements that non-testimonial hearsay at
face value. Because the 911 call was held to be non-testimonial, the 911 call in its substantial
entirety was going to be admitted. The District Court was unwilling to pull out those parts that
seemed testimonial as Ms. Hutchins described why the police should come and arrest Mr. Estes.
The Court of Appeals simply affirmed without recognizing Bryant’s guidance on this kind of
20

confrontation problem.
The majority in Bryant’s final section of the adopted an analysis that should have informed
both the District Court opinion and the Court of Appeals approach. Bryant required the
circumstances be contextualized with in the emergency:
We reiterate, moreover, that the existence vel non of an ongoing emergency is not the
touchstone of the testimonial inquiry; rather, the ultimate inquiry is whether the
“primary purpose of the interrogation [was] to enable police assistance to meet [the]
ongoing emergency.” Davis, 547 U.S., at 822, 126 S.Ct. 2266. We turn now to that
inquiry, as informed by the circumstances of the ongoing emergency just described.
Bryant, at 374. A reasonable listener would not have concluded that Ms. Hutchins was facing an
ongoing emergency that required help. Ms. Hutchins said he was distracted, she had communicated
with Ms. Wing and Ms. Maheux before calling the police, Ms. Wing had called the police almost 10
minutes earlier, the dispatcher could hear the non-threatening nature of the communication between
Ms. Hutchins and whoever was in the car with her. The incriminating responses were not
objectively necessary to resolve the present emergency. The dispatcher knew almost immediately
that Ms. Hutchins was close to the police station, that she was stopped in her vehicle, was given a
description of the vehicle, Ms. Hutchins clearly indicated that the threat to her was over at 3 minutes
and 48 seconds into the call, the 911 call itself may have been as long as 30 minutes after any event
that Ms. Hutchins thought threatening.

III.

The United States Supreme Court should grant the Petition for a Writ of
Certiorari to resolve this significant erosion of the Sixth Amendment right to
confrontation.

The Court should take this opportunity to resolve this opportunity to both discourage the
tactic used here by the Government and enforce the Constitution’s guarantee of confrontation.
21

